WAIVER

Supreme Court, U.S.
FILED

JUN 1 6 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-1667

City of East Cleveland, Ohio, et al.

Arnold Black

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a ir mewl er.
r.
Signature
Date: 06/00

021

(Type or print) Name

Justin J. Hawal
Mr. 0 Ms. 0 Mrs. 0 Miss

Firm DiCello Levitt Gutzler LLC
Address 7556 Mentor Avenue
City & State Mentor, Ohio
Phone (440) 953-8888

Zip 44060
Email jhawal@dicellolevitt.corn

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Randy Hicks, randyhicks142@yahoo.com

iii

'DUCH:L.0 LEVITT G•IITZLER
7556 MENTOR AVE. MENTOR, OHIO 44060

JUSTIN HAWAL
JHAWAL@DICELLOLEVITT.COM
440.953.8888

June 14, 2021
Supreme Court of the United States
ATTN: Clerk of Courts
1 First Street, NE
Washington, DC 20543
Re:

City of East Cleveland, et al. v. Arnold Black
Supreme Court Case No. 20-1667

Dear Sir or Madam,
Enclosed please find the Waiver with regard to the above-captioned matter.
Thank you for your attention in this matter.
Sincerely,

Justin Hawal

JjH/eh
Enclosure

RECEIVED
JUN 2 2 2021
CLEVELAND • CHICAGO • NEW YORK • ST LOUIS • DICELLOLEVITT.COM

OFFICE OF THE CLERK
SUPREME COURT U.S.

